No.

IN THE
SUPREME COURT OF THE UNITED STATES

MARCUS SIMPSON-PETITIONER
Y.

THE HAMILTON COUNTY COURT OF COMMON PLEAS
THE HONORABLE JUDGE ROBERT H. GORMAN
- RESPONDENT

PROOF OF SERVICE

I, Marcus Simpson so declare that on this 11th day of August, 2020.1 have served a copy of this
’corrected cover page ’ ofthe (petition for a writ ofcertiorari) on the herein named Respondent’s
counsel.
The named and address of those served by Reg. U.S. Mail are as follows.
Mr. Joseph T. Deters (0012084P)
Hamilton County Prosecuting Attorney
230 East Ninth Street, Suite 4000
Cincinnati, Ohio 45202
(513)946-3227
Counselfor Respondent
I, declare under penalty of perjury that the foregoing is true and correct
Executed on 11th day of August, 2020

No.

IN THE
SUPREME COURT OF THE UNITED STATES

MARCUS SIMPSON-PETITIONER
V.
THE HAMILTON COUNTY COURT OF COMMON PLEAS
THE HONORABLE JUDGE ROBERT H. GORMAN
- RESPONDENT

PROOF OF SERVICE
I, Marcus Simpson so declare that on this /6

day of /)nn

2020.1 have served a copy of this

Motion for Leave to Proceed in Forma Pauperis and Petition for a Writ of Certiorari on the herein
named Respondent’s counsel.
The named and address of those served by Reg. U.S. Mail are as follows.
Mr. Joseph T. Deters (0012084P)
Hamilton County Prosecuting Attorney
230 East Ninth Street, Suite 4000
Cincinnati, Ohio 45202
(513)946-3227
Counsel for Respondent
I, declare under penalty of perjury that the foregoing is true and correct
Executed on

/<?

, 2020

